No. 20-1527

In The

Supreme Court of the United States
Michelle Stopyra Yaney,
Petitioner,'

v.
The State Bar of California,
Respondents.

On Rehearing to the California Supreme Court.
There is a Related Case in this Court, Case 20-1157.

PETITION FOR REHEARING
Michelle Stopyra Yaney
3905 State St. Ste. 7-365
Santa Barbara, Ca. 93105
Ph.: 805-453-1376
In Propria Persona
July 15, 2021

MECEIVED
JUL 3 0 2021
O rz.i:crzcvv A- L.

OFFICE OF THE CLERK
SUPREME COURT, U.S.

CERTIFICATION OF GOOD FAITH
Pursuant to Rule 44 of this U.S. Supreme Court, I declare
this rehearing petition is made in good faith not to delay in any
way.
Signed under the penalty of perjury on this day, July 15, 2021.

Michelle Stopyra. Yaney

it

PARTIES TO THE PROCEEDING
Rule 14.1(B)(I)

Michelle Stopyra Yaney is the petitioner in
California Supreme Court case S263130.

Chief Justice Tani Cantil-Sakauye,
Supreme Court of California
350 McAllister Street
San Francisco, Ca. 941024797
415-865-7000

ornee of General Counsel,
State Bar of California Unit
180 Howard St.
San Francisco, Ca, 94105
213-765-1000

111

LIST OF APPENDICES

APPENDIX 1
Order Denying Case 20-1527
APPENDIX 2
Order denying Certiorari May 3, 2021, Case 20-1157
APPENDIX 3
Order of Santa Barbara California APS (Adult Protective
Services) dated June 15, 2021
APPENDIX 4
Order of Chandler Arizona APS (Adult Protective
Services) dated April 15, 2021 and May 27, 2021.
APPENDIX 5
Petitioner's Mother 's Declaration
APPNDIX 6
All Recent Orders to include the order dated 4/27/21 on
mootness of appeal and the recent denial of stay of appellate
procedure in the Court of Appeal Fourth District Division
Two.

w
A NEW QUESTION AND A PREVIOUS QUESTION
It is established that GVR may be granted if there is a new
discovery that would have resulted in a different outcome in this
court or the lower court. Petitioner has a case submitted to this
court in 2017. This was decided right before the dismissal of
petitioner's first State Bar complaints and before the Cal. Sup.
Ct. granted to petitioner the aformentioned motion for judicial
notice. The case has remained as pending for years on this courts
clerk's website entitled the "Cert Pool", The question asked was;
Whether a litigant who is established to
be suffering a mental disability can
request an accommodation under the
ADA from an appellate court in a writ of
mandate for relief from what they
believe is discriminatory procedure of a
lower state court or state agency?
Petitioner wrote in her certitorai on this case a question as
whether or not communication may be asked for as an
accommodation under the ADA when a mentally disabled litigant
does not understand why a court or government agency is being
prejudice. Petitioner stated it can not be the norm that the
starting of an investigation with law enforcement by an attorney
exactly when a court can rule for a prose litigant.
Petitioner asks a new question under uniformity for other
citizens of our country due to what has happened to her and is
brought to this petition. The question is:

Petitioner asks this court point blank
what are we as citizens of the United
States allowed to know about how a
court perceives the record of our name
so we may defend our right to the
neutrality of a court?
And whether it is a violation of the First
Amendment for a court to not disclose to
a litigant who is a pro per that it has
been informed by an attorney of a
criminal investigation or any other
activity that affects the courts ability to
rule in a neutral manner?

t

The First Amendment of the U.S. Constitution protects the
Freedom of Expression which consists of the right to freedom of
speech, press, assembly and the right to petition the government
for a redress of grievances.
28 U.S.C.§ 1651(a), The All-Writs Act - which authorizes
federal courts to issue "all writs necessary or appropriate in aid
of their respective jurisdictions and agreeable to the usages and
principles of law," This court has jurisdiction and authority to
provide injunctive relief and declaratory relief under the
following statutes and laws: 28 U.S.C. § 1331, 42 U.S.C. § 1983.
ARTICLE III STANDING
United States Constitution, Article III, Section 1: The
judicial power of the United States, shall be vested in one
supreme Court, and in such inferior Courts as the Congress may
from time to time ordain and establish.
In 1803, in the case of Marbury v. Madison, the Supreme
Court, in an opinion written by Chief Justice John Marshall,
interpreted Article III and Article VI to give the federal courts
final say over the meaning of the federal Constitution and federal
laws and the power to order state and federal officials to comply
with its rulings. The federal courts can make decisions only on
cases that are brought to them by a person who is actually
affected by the law.

"Liberty lies in the hearts of men & women; when it dies
there, no constitution, no law, no court can even do much to help
it."
Judge Learned Hand

PETITION FOR REHEARING
Petitioner Michelle Stopyra Yaney, understands that this
Court grants rehearing petitions exceedingly rarely and defers a
decision in the same manner. Respectfully, this petition presents
one of those exceedingly rare situations.
Petitioners' certiorari case 20-1527 was denied by this court
on June 21, 2021. Pursuant to Supreme Court Rule 44.1, this
petition for rehearing is filed within 25 days of this Court's
decision.
Their was another case which was denied on May 3, 2021 it
is case 20-1157 Yaney v. Superior Court of Riverside. The
deadline for rehearing has passed on the case and it is collateral.
Petitioner could not submit a petition due to suffering anxiety
over the events here which had begun.
Both cases recently denied in this court pertain to the same
trial court case currently on appeal in the lower State Court of
Appeal Fourth District Division Two, Yaney v. Turner, case
E073428.

REQUEST TO DEFER
Petitioner respectfully requests that this court, as it has
done for others, defer consideration of this rehearing petition.
This court must preserve jurisdiction for petitioner's appeal that
is still pending. Petitioner has been denied a stay and the order is
in Appendix 6.
Please consider the order brought to this rehearing is on a
writ of mandate; an original action decided in the California
Supreme Court. The alleged actions of respondent, the State Bar
of California occurred within the procedure of the trial court case
currently pending appeal.
This request is also due to the new events that verify
petitioner's name does now allow the respondent the State Bar
to consider their new rule of law brought by petitioner in her
complaints, Rule 8.4.1.
One of the reasons for deferring decision and the granting of
GVR is jurisdiction of this court and the harm it can cause. The
fact is petitioner errored and took the jurisdiction of new
evidence away from herself. Petitioner believes she did this by
submitting it to this court prematurely. Petitioner attached as
an Exhibit her motion for additional evidence currently pending
in her appeal having been deferred submitting it to this court in
the other case that is collateral, case 20-1157. Please see the end
of this petition for additional reasons for deferral.

WHAT HAPPENED DURING REHEARING
JURISDICTION IN THIS COURT
What has happened occurred during the decision in this
court on this case and while petitioner was trying to have the
court of appeal rule on her motion for additional evidence
currently deferred in her appeal.
Petitioner was contacted by text from an APS officer(Adult
Protective Services) that was three thousand miles away on the
evening of June 13, 2021. The message stated the officer had
called law enforcement on petitioner in CA and NY.
Petitioner was driving with her mother who is battling
cancer and they could have been hurt in an accident. There had
never been an investigation or interview or mailing of any order
of APS. They had spoken to her mother as they had requested.
Then they asked for video and petitioner signed up for zoom and
they never responded.
The next day petitioner immediately called the local APS
office in Santa Barbara Caifornia who explained the police are
not after her and an APS officer needs to see her mother.
Petitioner and her mother gave complete access for as long as the
officer needed. He asked to speak with petitioner's mother alone.
He found nothing wrong apoligizng to petitioner for disturbing
them.

Petitioner requested a notice of decision from the APS officer
who had visited. The officer lied to petitoner stating that her
mother had asked and he sent the letter addressed to her mother
and without a case number. The case number and the letter
addressed to petitioner the accused was appropriate. The APS
office 3000 miles away also stated in an email to petitioner they
would send a letter to her mother only and there is no case
number.
Petitioner is submitting all APS Ccommunication in support
of this rehearing request because of the procedure in the court of
appeal where her appeal is pending. APPENDIX 3 AND 4 APS
NOTICES
The allegation against petitioner was that she poisoned her
mother with her own medication. The APS officer was more
interested in the home petitioner's mother has. The officer asked
petitoner's mother whether or not she wanted petitioner to have
the home and her mother answered that she wanted petitioner to
have it and she has left it to her. The officer also wanted to know
whether or not petitioner had a Power of Attorney that her
mother had approved of and her mother answered yes she
wanted petitioner to be her Power of Attorney. Petitioner's
mother has written in her own words a declaration for this
petition. SEE APP. 5 DEC.

THE PENDING APPEAL AND THE STATE BAR WAIVER
On May 27, 2021 the State Bar attorney waivered in this
case. Petitioner asked him to not do this noticing further
procedure she wanted to submit due to the new events.
On May 26,2021 right before the latest investigation in
California petitioner called the court where her appeal to tell
them that Adult Protective Services issued "A Closure Letter" in
the state of Arizona. APS had promisied the letter since
February 1st 2021.
The day the letter was sent was the last day for rehearing in
the other case decided at the same time as this one in this court.
It was also the last day for the submission of evidence in support
of petitioner's supplemental brief on the mootness of her appeal
Petitioner explained she is busy with her mother who has cancer
and the court suggested she send it as email communication.
At 8:35 am in the early morning of May 27, 2021, petitioner
received an email from the Court of Appeal 's head clerk
confirming she had received the letter.
Petitioner then called back the court on June 4, 2021
speaking to the same supervvising clerk. She did this after she
began to notice that there were police officers everywhere
observing her with her mother. Petitioner asked for
communication on whether or not the court was obligated to start
its own investigation or needed to do so. The court stated no.

The court of appeal was the only place petitioner had sent
the letter because she was waiting for APS to correct her address.
Petitioner had asked many times for a correction and had been
promiemd it. She believed the way it was issued erroneously
stating her name and the word HOMELESS was disrespectful.
The corrected letter arrived and it is dated May 27, 2021
the same day the State Bar waivered in this case. The date is
also the same date which the last day for rehearing on the other
case of this court 20-1157.
The letter stated petitioner's address as Santa Barbara with
AZ after it and it was dated May 27, 2021. This allowed an
investigation in California and it appears that was the goal. APS.
APP. 3 AND 4 ALL APS NOTICES
Background of the court of appeal is nesacary to
jurisdiction because the appeal is still pending giving this
court the authority to act. It is also important because the
first investigation started shortly after petitioner filed her motion
for additional evidence in the appeal case that is still pending.
Petitioner's motion has been been deferred and it was filed on
December 18, 2020 pursuant to; California Rules of Court, Rule
8.252(c), California Rules of Court, Rule 23 and California Civil
Procedure Code § 43 and California Code of Civil Procedure
section 909(b) and (c) Exceptional Evidence on Appeal.

1

The discovery was of documents prepared by petitioner's
cousin an attorney had it appear that petitioner would soon be
arrested and her own mother had retained him and choose to not
send in a drop charges form that she did sign two years prior..
This was before petitioner ever met the defendant Turner in the
underlying trial court case both cases of this court are under.
On January 14, 2021, after petitioner's motion for
exceptional evidence was filed within her appeal case, petitioner's
mother's oncologists in Arizona erroneously received information
from a "friend of the family" as they wrote. An investigation was
started with APS, and it resulted in petitioner being found
innocent of harming her mother and it was determined that her
mother was safest with her.
Petitioner answered the Court of Appeal's 4/27/21 request,
for her to write a supplemental brief on the court's determination
of mootness of her appeal by asking the court to take the
evidence as it has for others prior to rendering it moot. Petitioner
carefully cited cases which allowed the court of appeal to take
evidence without determining anything. The order of April 27,
2021 is attached. SEE APPENDIX 6 RECENT ORDERS
Petitioner called the court of appeal on June 4, 2021 which
was the same day that Santa Barbara APS states in their notice
as when the investigation began. The call was a request for
decision on petitioner's supplemental on mootness that the court
had filed on May 17, 2021. Petitioner was told oral argument

would be scheduled. She stated that she agreed with the court
asking them to take the evidence in the motion they had
deferred. Petitioner further responded by stating the respondent
has not responded.
The appeal has pended since August of 2019 even though it
is about the return of petitioner's personal property. Petitioner's
opening brief was filed, and it states on the docket that it is was
sent to a panel of justices. Also the court issued a three page
correction list for the brief why would they do this if the appeal
was moot from the beginning? SEE APP. 6
The appeal requests the case be reinstated and the judge
errored allowing for petitioner to voluntarily dismiss the case
after an appeal of an order denying the correction of a granted
writ of possession was filed. This dismissal happened when
petitioner panicked due to her belief she was suffering severe
prejudice that she now understands is based on the belief she
would soon be arrested. The Court of Appeal recently denied a
stay of appeal so petitioner could bring the new events to the trial
court. APP. 6 ORDERS ON STAY

REASONS FOR THE GRANTING OF RELIEF
Petitioner has had to pursue three cases of lost property to
no avail and each time she has pleaded to all the court's
including this one to remand the case for reconsideration.

9

Petitioner's plea has always included a declaration stating that
her name was being ruined with events beyond her control
happening right before a decision or when she files a document in
the court that has merit. Now years later there is solid proof of
this that occurred during the decision on this case. The proof
verifies how bad it has become. Petitioner is not writing about
the function of APS (Adult Protective Services) because it is
important. She is writing about how they treated her and how
dangerous it was because she did not understand.
Petitioner must state that she did not feel like a citizen of
this country under our constitution during the rehearing time on
this case. This is justifiable because there is no case number for
the closure of the APS investigation. The head of APS in Santa
Barbara stated to petitioner the following; " if you have any
trouble have them give me a call because no one can get the
records they are sealed." Petitioner asserts we are not in the days
of Al Capone where a government agency may bury the good of a
person who is seeking relief in an appellate court.
There is a pettern here because the State Bar would not
acknowledge the relief it granted to petitioner in this case. This
was written in petitioner's certiorari on this case.

10

The State Bar and the California Supreme Court have
watched for years as petitioner suffered retaliation by attorneys.
They have seen how it is done and it affects her ability to have
what she cares about her home, her vehicle, her mother and her
pet.
The events here verify that this is the second time an
investigation was started with APS exactly when petitioner filed
a document with merit in her appeal. This is not a coincidence.
Petitioner wrote in her certitorai on this case a question
which asked whether or not communication may be asked for as
an accommodation under the ADA when a mentally disabled
litigant does not understand why a court or government agency is
being prejudice in their procedure.
Petitioner is asserting this court must act on this case even
though it did not consider her question because she is an
established disabled litigant under social security and she was
denied meaningful accesss to the lower courts and the State Bar
of California. The proof is here and in this courts record of other
cases of petitioners'. And the State Bar did the opposite of what
they should have waivering in this case at the time they did.
Please consider the following;
Title II of the Americans with Disabilities Act (ADA), 42
U.S.C. 12131 et seq., as applied in the context. Title II of the
Americans with Disabilities Act (ADA), 42 U.S.C. §§ 1213112134, prohibits public entities from discriminating against the

disabled. The regulations for the ADA are 28 C.F.R. Part 35.
Title II's definition section states that "public entity" includes
"any State or local government" and "any department, agency or
special purpose district." See Olmstead v. L.C. by Zimring, 527
U.S. 581, 590, 119 S.Ct. 2176, 2182, 144 L.Ed.2d 540 (1999). In
a decision under Title II of the ADA, the U.S. Court of Appeals
for the Ninth Circuit explained "meaningful access" as it was
used in Alexander v. Choate, 469 U.S. 287, 293 (1985). The
Crowder Court explained: The Supreme Court interpreted the
Rehabilitation Act in Alexander v. Choate, ibid. In Choate, the
Court concluded that Congress intended to protect disabled
persons from discrimination arising out of both discriminatory
animus and "thoughtlessness," "indifference," or "benign neglect."
The Court held, however, that judicial review over each and
every instance of disparate impact discrimination would be
overly burdensome. Rather than attempt to classify a type of
discrimination as "deliberate" or "disparate impact," the Court
determined it would be more useful to access whether disabled
persons were denied "meaningful access" to state-proved services.
(citations omitted). See Crowder v. Kitagawa, 81 F.3d 1480, 1484
(9th Cir. 1996).
Petitioner needs the Court of Appeal to be neutral when
deciding her pending appeal so she may help her mother and
they both may have a place to live.
Petitioner's mother has not received treatment for her
cancer since she was in Arizona in February and it was not
considered by anyone how the APS investigations would harm
her or a doctors ability to help her. By all the writing available
regarding esophageal cancer including Johns Hopkins, it is a
fatal cancer at petitioner's mother's stage and at her age of 80.
She has had one procedure which took place on May 4, 2021 the

1Z

day after this court denied petitioner's certiorari on the other
case decided at the same time as this one, case 20-1157.
Petitioner has been traveling with her mother showing her
special places in California. The truth is they would have liked
to go home so petitioner's mother could pass away in her parents
home; the home of petitioner's grandparents. Both petitioner and
her mother believe that they cannot because of her cousin the
attorney. He has caused much of what has happened by
misleading those who could have considered petitioner and he is
also known in the record for using law enforcement and local
services such as APS to intimidate.

THIS COURT'S JURISDICTION
It is established that this court's denial of certiorari does not
affect any other relief in the lower courts, however petitioner's
record does not show this and what if a court wants it that way?
Please consider the record of all the cases in this US Supreme
Court because they were denied immediately after petitioner lost
this court's jurisdiction. This has happened for the last six years
in the same court where petitioner's appeal is now pending, the
State Court of Appeal Fourth District Division Two. The fact that
it is pending gives this court jurisdiction to act uder appellate
jurisdiction.

1%

Petitioner is requesting GVR as the granting of a
reconsideration of both cases to the California Supreme Court.
They also believed petitioner was being pursued by an attorney
and she would shortly be arrested and they knew she did not
know, it is in the record. There following case brought the First
Amendment cases of this court on the freedon of communication
and discussion regarding government decisions. The case was
decided in favor of attorneys.
[L.A. No. 30601. Supreme Court of California. May 3,
1977.]LEONARD D. JACOBY et al., Petitioners, v. THE STATE
BAR OF CALIFORNIA, Respondent.. [4] As the United States
Supreme Court has consistently held, "the protection afforded [by
the First Amendment] is to the communication, to its source and
to its recipients both." (Va. Pharmacy Bd. v. Va. Consumer
Council (1976) 425 U.S. 748, 756 [48 L. Ed. 2d 346, 355, 96 S. Ct.
1817] [hereinafter Board of Pharmacy]; see also Kleindienst v.
Mandel (1972) 408 U.S. 753, 762-764 [33 L. Ed. 2d 683, 691-693,
92 S. Ct. 2576]; Stanley v. Georgia (1969) 394 U.S. 557, 564 [22
L. Ed. 2d 542, 549, 89 S. Ct. 1243]; Lamont v. Postmaster
General (1965) 381 U.S. 301, 308 [14 L. Ed. 2d 398, 403, 85 S. Ct.
1493] (Brennan, J., concurring).) This societal interest runs to
the heart of the First Amendment, a major purpose of which is to
promote free discussion of governmental affairs. (Buckley v.
Valeo (1976) 424 U.S. 1, 14 [46 L. Ed. 2d 659, 684-685, 96 S. Ct.
612].)
This court has granted rehearing and GVR when there are
multiple orders that are related with an issue that if it had been
known would have caused a different outcome in the lower court
or this court. This court has also granted GVR for intervening
circumstances of a substantial effect when it is most probable the
lower court will not act on its own.

14
\\ See Lawrence v. Chater, 516 U.S. 163, 167 (1996)
(explaining that the Court issues a GVR when there is "a
reasonable probability that the decision below rests upon a
premise that the lower court would reject if given the
opportunity"); see also Tyler v. Cain, 533 U.S. 656, 666 (2001).
Typical language is; "The petition for a writ of certiorari is
granted. The judgment is vacated and the case is remanded to
[the relevant lower court] for further consideration in light of [the
relevant recent event]." In issuing a GVR, this Court does not
determine the intervening event. Thus, the purpose of the -GVR
device is to give the lower court the initial opportunity to
consider the possible impact of intervening developments.

To conclude, petitioner brought Justice Brandeis of this court
and his life of service to her certiorari instead of case citations.
For this rehearing she brings a passage written by him on the
personal liberty of an individual in support of the granting of
relief.
Warren and Brandeis, Harvard Law Review Vol. IV
December 15, 1890 No. 5, "That the individual shall have full
protection in person and in property is a principle as old as the
common law; but it has been found necessary from time to time
to define anew the exact nature and extent of such protection.
Political, social, and economic changes entail the recognition of
new rights, and the common law, in its eternal youth, grows to
meet the new demands of society. Thus, in very early times, the
law gave a remedy only for physical interference with life and
property, for trespasses vi et armis. Then the "right to life"
served only to protect the subject from battery in its various

Is
forms; liberty meant freedom from actual restraint; and the right
to property secured to the individual his lands and his cattle.
Later, there came a recognition of man's spiritual nature, of his
feelings and his intellect. Gradually the scope of these legal
rights broadened; and now the right to life has come to mean the
right to enjoy life, -- the right to be let alone; the right to liberty
secures the exercise of extensive civil privileges; and the term
"property" has grown to comprise every form of possession -intangible, as well as tangible.
Petitioner requests the court defer consideration of this
rehearing petition until final decision on her appeal in the lower
court.
Signed under the penalty of perjury on July 15, 2021.

Michelle Stopyra Yaney

14,
VERIFICATION
I, Michelle Stopyra Yaney, being over the age of eighteen
and fully competent to make this statement does have personal
knowledge of the matters contained herein the "PETITION FOR
REHEARING."
I hereby affirm that the above petition and contents, exhibits
and inserts are true and accurate.
I declare under penalty of perjury under the laws of the
United States that the above is true.
Executed on July 15, 2021

---hrtuartaz s47:5.621
-rMichelle Stopyra Yaney

CERTIFICATE OF COMPLIANCE
Petitioner Michelle Stopyra Yaney, as required by Supreme
Court Rule 33.1(h), certify that the attached petition for
rehearing contains words, excluding the parts of the petition that
are exempted by Supreme Court Rule 33.1(d) totaling 3996.
Petitioners declares under penalty of perjury that the
foregoing is true and correct to the best of her ability.
Executed on July 15, 2021.

Michelle Stopyra Yaney

20-1527

IN THE

upreme Court of tije Ziniteb Optatecs
AFFIDAVIT OF SERVICE
I, Michelle Stopyra Yaney, do swear and declare that on
this date, July 15, 2021, as required by Supreme Court
Rule 29, I declare that I sent to a third-party mailing
service the enclosed; PETITION FOR REHEARING to each
party or that party's counsel, and on every other person
required to be served. I declare that I additionally
deposited an envelope containing the aforementioned
petition in the United States mail properly addressed with
first-class postage prepaid. The names and addresses of
those served are
Superior Court County of. Riverside, 4100 Main St.
Riverside, Ca. 92501, 951-777-4100.
Office of General Counsel State Bar of California Unit
180 Howard St. San Francisco, Ca. 94105
213-765-1000
I declare under penalty of perjury that the foregoing
is true and correct. Executed on July 15, 2021.

Michelle Stopyra Yaney

Additional material
from this filing is
available in the
Clerk's Office.

